App. 1
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
-----------------------------------------------

No. 17-10706
Summary Calendar
-----------------------------------------------

UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
MICHAEL DAVID GOODWIN,
Defendant - Appellant
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 2:14-CV-91
USDC No. 2:12-CR-37-1
-----------------------------------------------------------------------

(Filed Jul. 30, 2019)
Before BENAVIDES, OWEN, and ENGELHARDT, Circuit Judges.
PER CURIAM:*

* Pursuant to 5TH CIR. R. 47.5, the court has determined that
this opinion should not be published and is not precedent except
under the limited circumstances set forth in 5TH CIR. R. 47.5.4.

App. 2
Former federal prisoner Michael David Goodwin
ﬁled a 28 U.S.C. § 2255 motion challenging his guiltyplea conviction for aiding and abetting health care fraud,
alleging numerous grounds of ineffective assistance of
counsel. After the district court denied his motion, this
court granted him a certiﬁcate of appealability on the
issue whether lead counsel, Clark Holesinger, rendered
ineffective assistance by failing to appear at Goodwin’s
rearraignment, sending local counsel, William Kelly, in
his stead.
Following the denial of § 2255 relief, this court reviews the district court’s legal conclusions de novo and
its factual ﬁndings for clear error. United States v.
Cavitt, 550 F.3d 430, 435 (5th Cir. 2008). Ineffective assistance of counsel claims are mixed questions of law
and fact, reviewed de novo. United States v. Culverhouse,
507 F.3d 888, 892 (5th Cir. 2007). Factual ﬁndings, including credibility determinations, are not clearly erroneous so long as the ﬁndings are plausible in light of
the record as a whole. United States v. Montes, 602 F.3d
381, 384 (5th Cir. 2010).
As he did below, Goodwin argues that he was wholly
without counsel at rearraignment because Holesinger
was his attorney, and he renews his assertion that
Kelly’s physical presence at rearraignment was insufﬁcient because Kelly did not represent him but instead
represented only his wife, Patricia Goodwin. He urges
that Holesinger’s failure to appear at that critical stage
violated his Sixth Amendment rights, that United States
v. Cronic, 466 U.S. 648 (1984), rather than Strickland
v. Washington, 466 U.S. 668 (1984), therefore applies

App. 3
such that prejudice is presumed, and that reversal is
thus appropriate.
Goodwin’s argument is that Holesinger’s absence
and Kelly’s substitution amounted to a constructive
denial of counsel. The “constructive denial of counsel
occurs, however, in only a very narrow spectrum of
cases where the circumstances leading to counsel’s ineffectiveness are so egregious that the defendant was
in effect denied any meaningful assistance at all.”
Craker v. McCotter, 805 F.2d 538, 542 (5th Cir. 1986)
(citations, internal quotation marks and emphasis
omitted). Goodwin bears the burden of proving a constructive denial of counsel. Childress v. Johnson, 103
F.3d 1221, 1228-29 (5th Cir. 1997).
Here, the district court found Goodwin’s assertion
that Kelly was not his attorney to be incredible, instead
ﬁnding that Kelly acted as local counsel and speciﬁcally crediting (1) Kelly’s evidentiary hearing testimony explaining their attorney-client relationship,
(2) Goodwin’s sworn rearraignment testimony acknowledging Kelly’s representation and expressing satisfaction with it, and (3) Goodwin’s testimony at the Garcia1
hearing requesting that Kelly and Holesinger jointly
represent him and his wife. Goodwin makes no argument addressing these findings, much less demonstrating them to be clearly erroneous. See United States v.
Scroggins, 599 F.3d 433, 446 (5th Cir. 2010) (stating
1

United States v. Garcia, 517 F.2d 272, 278 (5th Cir. 1975),
abrogated on other grounds by Flanagan v. United States, 465
U.S. 259, 263 & n.2 (1984).

App. 4
that a party who fails to adequately brief an appellate
issue waives it). Moreover, any such argument would
be meritless. The court’s ﬁndings are supported by the
record and are further corroborated by Kelly’s attendance at Goodwin’s arraignment, Kelly’s ﬁling joint
pre-trial pleadings on Goodwin’s behalf, and Patricia
Goodwin’s evidentiary hearing testimony speciﬁcally
admitting that Kelly represented both her and her
husband. See Montes, 602 F.3d at 384.
Additionally, the credited evidentiary hearing and
rearraignment testimony shows that Goodwin reviewed
the charges, the plea agreement, and the factual basis
with Kelly prior to pleading guilty, that Kelly was present to address any of Goodwin’s questions or concerns,
and that Goodwin raised none. Kelly thus provided
“some meaningful assistance” to Goodwin. See Craker,
805 F.2d at 542-43. Consequently, Goodwin fails to
show that the district court erred in declining to apply
the Cronic presumption of prejudice. See Childress,
103 F.3d at 1229, 1231-32.
The two-pronged Strickland analysis therefore
applies to Goodwin’s claim that Holesinger was ineffective in failing to attend rearraignment. However, as
the Government points out, by failing to brief any argument that he was prejudiced by Holesinger’s absence, his ineffective assistance claim therefore fails
and is abandoned. See Strickland, 466 U.S. at 694, 697;
Scroggins, 599 F.3d at 446; Yohey v. Collins, 985 F.2d
222, 224-25 (5th Cir. 1993); FED. R. APP. P. 28(a)(8).
Further, even had Goodwin briefed it, any argument
that he was prejudiced by Holesinger’s failure to

App. 5
attend rearraignment would fail. The record does not
support the conclusion that, but for Holesinger’s absence, Goodwin would not have pleaded guilty. To the
contrary, as the district court determined, the record
establishes that Goodwin’s primary goal was to have
the charges against his wife dismissed, and his plea
achieved that goal. That being so, he cannot demonstrate that, but for lead counsel’s absence from rearraignment, he would not have pleaded guilty but would
have insisted on going to trial. See United States v. Kinsey, 917 F.2d 181, 183 (5th Cir. 1990); see also Strickland, 466 U.S. at 694, 697.
The district court’s judgment is AFFIRMED.

App. 6
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
-----------------------------------------------

No. 17-10706
-----------------------------------------------

UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
MICHAEL DAVID GOODWIN,
Defendant - Appellant
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Northern District of Texas
-----------------------------------------------------------------------

(Filed Jul. 27, 2018)
ORDER:
Michael David Goodwin, former federal prisoner
# 44899-177, seeks a certiﬁcate of appealability (COA)
to appeal the district court’s denial of his 28 U.S.C.
§ 2255 motion, which challenged his guilty plea conviction for aiding and abetting health care fraud. Invoking United States v. Cronic, 466 U.S. 648 (1984),
Goodwin argues that he was without representation
during his rearraignment proceeding. Goodwin also attempts to incorporate by reference additional claims
made in the district court and argues that Local Rule

App. 7
57.10 conflicts with a criminal defendant’s Sixth Amendment right to counsel.
A COA may be issued only if the movant “has
made a substantial showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2); see Slack v. McDaniel, 529 U.S. 473, 484 (2000). When the district court’s
dismissal of a movant’s constitutional claims is on the
merits, the COA movant must show that “reasonable
jurists would ﬁnd the district court’s assessment of the
constitutional claims debatable or wrong,” Slack, 529
U.S. at 484, “or that the issues presented were adequate to deserve encouragement to proceed further,”
Miller-El v. Cockrell, 537 U.S. 322, 336 (2003).
Reasonable jurists could debate the district court’s
rejection of Goodwin’s claim that he was effectively
without counsel during his rearraignment proceeding.
See Slack, 529 U.S. at 484. Accordingly, a COA is GRANTED
as to Goodwin’s claim that counsel rendered ineffective
assistance by failing to appear at Goodwin’s rearraignment proceeding. As for the remaining claims, Goodwin
has not made the requisite showing. See Henderson v.
Cockrell, 333 F. 3d 592, 605 (5th Cir. 2003); see also
McGowen v. Thaler, 675 F.3d 482, 497 (5th Cir. 2012);
Summers v. Dretke, 431 F.3d 861, 870 (5th Cir. 2005). A
COA is DENIED as to all other claims raised.
/s/

Stuart Kyle Duncan
STUART KYLE DUNCAN
UNITED STATES
CIRCUIT JUDGE

App. 8
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
AMARILLO DIVISION
MICHAEL DAVID GOODWIN §
§
v.
§
UNITED STATES
§
OF AMERICA
§

2:14-CV-0091

ORDER DENYING ISSUANCE OF A
CERTIFICATE OF APPEALABILITY
(Filed May 26, 2017)
Having issued a ﬁnal order in this case, a proceeding under 28 U.S.C. § 2255, and after considering the
record and the requirements of 28 U.S.C. § 2253 and
Fed. R. App. P. 22(b), the undersigned is of the opinion
petitioner has not made a prima facie showing for issuance of a Certiﬁcate of Appealability. For the reasons
stated in the Report and Recommendation and the Order adopting the Report and Recommendation and
denying the Motion Under 28 U.S.C. § 2255 to Vacate,
Set Aside, or Correct Sentence, a Certiﬁcate of Appealability is hereby denied.
IT IS SO ORDERED.
ENTERED this 26th day of May 2017.
s/ Mary Lou Robinson
MARY LOU ROBINSON
UNITED STATES
DISTRICT JUDGE

App. 9
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
AMARILLO DIVISION
MICHAEL DAVID GOODWIN §
§
v.
§
UNITED STATES
§
OF AMERICA
§

2:14-CV-0091

JUDGMENT
(Filed May 26, 2017)
Of equal date herewith, the undersigned United
States District Judge has entered an Order adopting
the Report and Recommendation issued by the United
States Magistrate Judge and denying petitioner’s Motion Under 28 U.S.C. § 2255 to Vacate, Set Aside, or
Correct Sentence.
JUDGMENT IS ENTERED ACCORDINGLY.
ENTERED this 26th day of May 2017.
s/ Mary Lou Robinson
MARY LOU ROBINSON
UNITED STATES
DISTRICT JUDGE

App. 10
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
AMARILLO DIVISION
MICHAEL DAVID GOODWIN §
§
v.
§
UNITED STATES
§
OF AMERICA
§

2:14-CV-0091

ORDER OVERRULING OBJECTIONS, ADOPTING
REPORT AND RECOMMENDATION, and
DENYING MOTION TO VACATE,
SET ASIDE OR CORRECT SENTENCE
(Filed May 26, 2017)
Came for consideration the motion to vacate, set
aside or correct sentence by a person in federal custody
filed by petitioner. On March 31, 2017, the United States
Magistrate Judge issued a Report and Recommendation in this cause, recommending therein that the instant motion be denied. On April 14, 2017, petitioner
ﬁled objections to the Report and Recommendation. On
April 17, 2017, the Magistrate Judge issued an Order
requiring the respondent to ﬁle a response to the objections, and the response was received on April 27,
2017.
In considering the objections and the response
ﬁled by the government, the Court ﬁnds that the ﬁrst
thirty-six (36) pages of the petitioner’s forty-two (42)
page objections to the Magistrate Judge’s ﬁndings in
the Report and Recommendation concern the presence

App. 11
of counsel at the December 13, 2012 rearraignment.
Petitioner argues the Magistrate Judge failed to account for the conﬂict of interest that existed between
his attorney, Mr. Kelly, and the petitioner following the
plea offer made by the government prior to the rearraignment. However, as the government points out, the
Magistrate Judge extensively discussed the testimony
of all witnesses and the evidence concerning Mr.
Kelly’s representation at the rearraignment and Mr.
Kelly’s ability to protect the constitutional interests of
GOODWIN during his guilty plea hearing. Petitioner
also objects to the Report and Recommendation’s ﬁnding that GOODWIN was not wholly without counsel at
the rearraignment because Mr. Kelly’s name is absent
from the transcript proceedings of the rearraignment.
This argument is disingenuous as all testimony and
evidence presented during the hearing on the Motion
to Vacate conﬁrm that Mr. Kelly was present for the
rearraignment and Mr. Holesinger was not present.
Further, the rearraignment transcript indicates GOODWIN was asked if he was satisﬁed with Mr. Kelly’s representation, and GOODWIN responded he was satisfied.
Having made an independent examination of the
record in this case and having examined the Report
and Recommendation of the Magistrate Judge, the
undersigned United States District Judge hereby
OVERRULES petitioner’s objections, and ADOPTS the
Report and Recommendation. Accordingly, the Motion
Under 28 U.S.C. § 2255 to Vacate, Set Aside, or Correct
Sentence ﬁled by petitioner is, in all things, DENIED.

App. 12
IT IS SO ORDERED.
ENTERED this 26th day of May 2017.
s/ Mary Lou Robinson
MARY LOU ROBINSON
UNITED STATES
DISTRICT JUDGE

App. 13
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
AMARILLO DIVISION
MICHAEL DAVID GOODWIN, §
§
Petitioner,
§
v.
§
§
UNITED STATES
§
OF AMERICA,
§
Respondent,
§

2:14-CV-91

REPORT AND RECOMMENDATION
TO DENY MOTION TO VACATE,
SET ASIDE, OR CORRECT SENTENCE
(Filed Mar. 31, 2017)
Petitioner MICHAEL DAVID GOODWIN (hereinafter “GOODWIN”) has ﬁled with this Court a Motion
to Vacate, Set Aside, or Correct Sentence Pursuant to
28 U.S.C. § 2255. On July 6 and July 7, 2016, the Court
conducted an evidentiary hearing. The evidentiary
hearing transcripts were docketed in this case as entries 64 and 65. Citations to the transcripts throughout
this Report and Recommendation will reference Docket
Entry, Page Number, and Line(s) (i.e. D.E. 64, p. 8, lines
1-3). GOODWIN was represented by retained counsel
at the evidentiary hearing, and several witnesses were
called to testify. For the reasons hereinafter expressed,
the undersigned United States Magistrate Judge is of
the opinion GOODWIN is not entitled to relief and

App. 14
recommends the Motion to Vacate, Set Aside, or Correct Sentence be DENIED.
I.
FACTUAL AND PROCEDURAL HISTORY
On August 15, 2012, petitioner GOODWIN was indicted on eleven counts of Medicaid Fraud pursuant to
18 U.S.C. § 1347 and § 2. Prior to the indictment petitioner had retained counsel from Indiana, Mr. Clark
Holesinger, to represent him and his spouse on forfeiture matters relating to this same alleged scheme. After indictment Mr. Holesinger entered an appearance
on the criminal matter in this case for GOODWIN on
August 22, 2016, as did co-counsel Mr. David Lee
DeBoer. On August 23, 2016, William B. Kelly, III entered his appearance on behalf [sic] GOODWIN as
well. Mr. Kelly was the only attorney local to Amarillo,
Texas representing GOODWIN. Additional charges were
brought by the government against GOODWIN in a
Superseding Indictment ﬁled September 12, 2016. The
additional criminal violations alleged in the Superseding Indictment involved a conspiracy to commit Medicaid Fraud. Under the Superseding Indictment, the
petitioner’s spouse, Patricia Goodwin, and his ofﬁce
manager, Annette Hastings, were named as co-defendants and they faced conspiracy charges along with
GOODWIN. On September 20, 2012, GOODWIN appeared with Mr. Kelly, his local counsel, and was arraigned on the September 2016 superseding indictment.
At that hearing, GOODWIN stated he read and understood the new charges in the superseding indictment.

App. 15
GOODWIN’S attorneys ﬁled motions to dismiss both
the original indictment and the superseding indictment, but those motions were denied.
On November 8, 2012 the District Judge held a
Rule 44(c) hearing on the propriety of joint representation because Mr. Holesinger and Mr. Kelly were jointly
representing both MICHAEL DAVID GOODWIN, petitioner, and his wife, Patricia. At the hearing, the Court
extensively questioned GOODWIN regarding possible
conﬂicts of interest that could arise with continued
joint representation. See United States v. Michael David
Goodwin, 2:12-CR-0037 (1), D.E. 153, pp. 11-17. GOODWIN repeatedly assured the Court that he wished to
proceed with joint representation and he understood
the possible conﬂicts of interest. Id. GOODWIN gave
the District Judge his reason for continuing with joint
representation (of GOODWIN and his spouse) by Mr.
Kelly and Mr. Holesinger as follows: “because of the
length of time that we’ve discussed these issues, we
feel comfortable with our counsel’s recommendations
and to proceed forward with the situation is that we
would both be represented by the same attorneys.” Id.
at p. 17, lines 6-10. Although the District Judge explicitly recommended separate counsel, joint representation was allowed to proceed. Id. at p. 18, lines 8-9; p. 19,
lines 8-14. GOODWIN and his spouse were both advised to directly address the Court and request separate counsel if either GOODWIN or Patricia Goodwin
believed there was a conﬂict. Id. at pp. 18-19.
On December 13, 2012 GOODWIN pleaded guilty
to one count of Medicaid Fraud. The plea was pursuant

App. 16
to a plea bargain calling for the remaining charges
against GOODWIN to be dismissed. In addition, the
charges against his spouse, Patricia, and ofﬁce manager, Annette Hastings, were to be dismissed as part of
the plea agreement. Pursuant to the plea agreement,
GOODWIN stipulated to the accuracy of the factual resume and acknowledged his plea of guilty was freely
and voluntarily made and not the result of promises
apart from those set forth in the plea agreement.
GOODWIN was questioned by the District Judge at his
rearraignment and he stated he was satisﬁed with his
lawyer’s (Mr. Kelly’s) representation. United States v.
Michael David Goodwin, 2:12-CR-0037 (1), D.E. 150,
p. 22, lines 21-23. GOODWIN further stated he had reviewed the factual resume with his attorney “many
times.” Id. at pp. 28-29. Furthermore, GOODWIN
signed the plea agreement stating that he had “received from his lawyer explanations satisfactory to
him concerning each paragraph of this plea agreement,
each of his rights affected by this agreement, and the
alternatives available to him other than entering into
this agreement,” and that after conferring with his
lawyer, concluded it was in his best interest to enter
into the plea agreement and plead guilty rather than
proceed to trial. United States v. Michael David Goodwin, 2:12-CR-0037 (1), D.E. 107. GOODWIN conﬁrmed
the terms of the plea agreement in open court and the
Court accepted GOODWIN’s plea and the plea agreement and ordered a Presentence Investigation Report
(PSR). On April 9, 2013, GOODWIN was sentenced to
a term of 50 months imprisonment. No direct appeal
was taken.

App. 17
GOODWIN, acting pro se, ﬁled a Motion Under 28
U.S.C. § 2255 to Vacate, Set Aside, or Correct Sentence
by a Person in Federal Custody on April 14, 2014 [D.E.
1]. GOODWIN, still acting pro se, ﬁled two subsequent
motions for leave to amend the original Motion to Vacate on July 21, 2014, and July 31, 2014 [D.E. 10 and
D.E. 12, respectively]. On January 23, 2016, GOODWIN, now represented by counsel, ﬁled a Third Motion
for Leave to Amend, superseding the original two motions for leave to amend [D.E. 19]. The government responded to the allegations in the original Motion to
Vacate on May 28, 2014 [D.E. 6], and responded to the
three motions for leave to amend on September 16,
2014, and March 2, 2016 [D.E. 15 and D.E. 22, respectively]. On July 13, 2016 the Court granted the petitioner’s Third Motion for Leave to Amend, and the
Clerk docketed the attached proposed Amended Motion to Vacate [D.E. 62], which became the controlling
pleading. Also on July 13, 2016 the Court entered a
Brieﬁng Order requiring the parties to address certain
issues by July 27, 2016 [D.E. 63]. The government ﬁled
its response to the brieﬁng order on July 27, 2016 [D.E.
66], and petitioner through counsel ﬁled a “Supplement to Brief in Support of Amended Motion” on that
same date [D.E. 68].1

1

The petitioner’s response to the brieﬁng order does not address the issues set out by the Court in the brieﬁng order; instead,
the response once again sets forth the arguments in the petitioner’s brief in support of the Third Motion for Leave to Amend,
which was granted on July 13, 2016.

App. 18
II.
PETITIONER’S ALLEGATIONS
In support of his contention that his conviction
and sentence were imposed in violation of the Constitution or laws of the United States, petitioner contends he received ineffective assistance of counsel
based upon the following:
1.

GOODWIN was wholly without the assistance of counsel at his December 13, 2012 rearraignment hearing.

2.

GOODWIN’S guilty plea was involuntary, unintelligent and derived from deﬁcient advice.

3.

Mr. Holesinger had an actual conﬂict of interest while representing GOODWIN because
he was primarily concerned with concealing
his (Holesinger’s) illegal activities, including
misappropriation of approximately $380,000
from GOODWIN.

4.

Mr. Holesinger failed to subject the government’s case to meaningful adversarial testing.

5.

Mr. Holesinger failed to pursue GOODWIN’S
claims of ownership in forfeiture proceedings,
which negatively impacted his criminal case.

6.

Mr. Holesinger did not depose or interview important witnesses, who had information critical to his defense.

7.

Mr. Holesinger concealed the “Miller Report”
by a defense expert, which was favorable and
necessary to GOODWIN’S defense.

App. 19
8.

Mr. Holesinger failed to examine the Medicaid
claim ﬁling practices of Dr. Charles Osborn,
who sold his practice to GOODWIN.

9.

Counsels’ failure to properly inform and discuss with defendant his plea agreement, factual resume, presentence report, and appellate
rights constituted ineffective assistance. Additionally, the failure to ﬁle an appeal was a
deﬁcient performance by counsel.
III.
STANDARD OF REVIEW

In its May 28, 2014 response to petitioner’s Motion
to Vacate, the government fully and accurately sets
out, at pages 6-9, the appropriate standard of review
for motions brought under 28 U.S.C. § 2255. In its September 16, 2014 response to petitioner’s Third Motion
for Leave to Amend, the government accurately sets
out, at pages 2-4, the appropriate limitations on such
motions and procedures to amend such motions. These
standards and limitations are applicable to this case.
IV.
MERITS
In Strickland v. Washington, 466 U.S. 668, 689, 104
S.Ct. 2052, 2064, 80 L.Ed.2d 674 (1984), the Supreme
Court established a two-part test for analyzing ineffective assistance of counsel claims. The Strickland test,
which applies to ineffective assistance of counsel claims
in guilty plea cases, requires a prisoner to demonstrate

App. 20
defense counsel’s performance was both deﬁcient and
prejudicial. Hill v. Lockhart, 474 U.S. 52, 58, 106 S.Ct.
366, 370, 88 L.Ed.2d 203 (1985).
An attorney’s performance is considered deﬁcient
if the attorney made errors so serious he or she was not
functioning as the “counsel” guaranteed to the defendant by the Sixth Amendment to the United States Constitution. Strickland, 466 U.S. at 689, 104 S.Ct. at 2064.
That is, counsel’s performance must have fallen below
the standards of reasonably competent representation
as determined by the norms of the profession. A reviewing court’s scrutiny of trial counsel’s performance
is highly deferential, with a strong presumption that
counsel’s performance falls within the wide range of
reasonable professional assistance. Id. at 689, 104 S. Ct.
at 2065.
In the context of a guilty plea, a defendant can satisfy the prejudice prong of Strickland by demonstrating that but for counsel’s deﬁcient performance, a
reasonable probability exists that the defendant would
not have pled guilty, but would have insisted on a trial.
Hill, 474 U.S. at 58, 106 S.Ct. at 370. Similarly, in the
context of a procedurally defaulted appeal, a defendant
can satisfy the prejudice prong by demonstrating that
“there is a reasonable probability that, but for counsel’s
deﬁcient failure to consult with him about an appeal,
[defendant] would have timely appealed.” Roe v. FloresOrtega, 528 U.S. 470, 477, 120 S.Ct. 1029, 1035, 145
L.Ed.2d 985 (2000).

App. 21
A. GOODWIN was not wholly without counsel
nor was he completely denied counsel at his
Rearraignment on December 13, 2012.
GOODWIN ﬁrst argues Mr. Holesinger’s failure to
attend the rearraignment constituted a complete denial of counsel at a critical stage of the proceeding.
While both sides agree that rearraignment was a critical stage, GOODWIN’s argument fails to account for
his statements to the District Court during his Rule 44
hearing acknowledging Mr. Kelly and Mr. Holesinger
jointly represented both him and his spouse. United
States v. Michael David Goodwin, 2:12-CR-0037 (1),
D.E. 153, p. 17, lines 6-10. His argument also ignores
the fact that Mr. Kelly was with him at his rearraignment.2 At numerous times throughout his criminal
case, GOODWIN acknowledged Mr. Kelly as one of
his attorneys to the Judge, including at the rearraignment hearing. United States v. Michael David Goodwin,
2:12-CR-0037 (1), D.E. 150, p. 22, lines 19-23. Additionally, Mr. Kelly testiﬁed at the evidentiary hearing that
he advised GOODWIN of the consequences of pleading
guilty although he refrained from advising him of the
propriety of pleading guilty versus going to trial. D.E.
64, p. 70, lines 8-22.
GOODWIN argues the Strickland standard does
not apply to his claim because Mr. Holesinger’s absence
from his guilty plea constitutes an exception to the
2

Attorney Kelly also appeared at the arraignment on the superseding indictment on September 20, 2012, where GOODWIN
acknowledged Kelly as “his attorney.” See United States v. Michael
David Goodwin, 2:12-CR-0037 (1), D.E. 51.

App. 22
Strickland standard articulated under Cronic.3 Cronic,
however, deals with the constructive denial of counsel,
not the absence of counsel. Id. The total absence of
counsel is presumed to be prejudicial without a properly
accepted waiver. The burden to show that a defendant
has been constructively denied counsel is on the movant.
Childress v. Johnson, 103 F.3d 1221, 1228, 1231-32
(5th Cir. 1997). GOODWIN was never totally without
counsel in that he acknowledged, to the Judge, that
Mr. Kelly was his attorney at the rearraignment.
GOODWIN further claims that the presence of attorney William E. Kelly III at his rearraignment hearing,
rather than the presence of his Indiana counsel Clark
Holesinger, constituted a denial of counsel because Mr.
Kelly had claimed in an afﬁdavit that he did not represent GOODWIN and GOODWIN believed he was not
represented by Mr. Kelly at that hearing. D.E. 65, p. 9,
lines 20-25; p. 10, lines 1-16. Although an afﬁdavit submitted by Mr. Kelly after the Motion to Vacate was ﬁled
does, on its face, limit his representation of GOODWIN,
Mr. Kelly testiﬁed and explained his afﬁdavit and his
representation of GOODWIN as “local counsel” during
the evidentiary hearing.4 As such, Mr. Kelly testiﬁed he
3

United States v. Cronic, 466 U.S. 648, 104 S. Ct. 2039, 80
L.Ed.2d 657 (1984) (issued the same day as Strickland).
4
Mr. Kelly’s afﬁdavit does not clarify what “responsibilities
as legal counsel” he had to GOODWIN, but it does conﬁrm the
attorney/client relationship. As noted above, those responsibilities did not include advice on whether to accept a guilty plea or
proceed to trial, as Mr. Kelly determined such advice would create
a conﬂict of interest for Kelly in advising co-defendant, Patricia
Goodwin, regarding her case, and would also create a conﬂict
of interest in representing Mr. GOODWIN as local counsel. Mr.

App. 23
was present at the rearraignment hearing to protect
GOODWIN’s constitutional rights and advise him if
he (GOODWIN) had questions regarding information
contained in plea documents that he had reviewed
with GOODWIN. D.E. 64, p. 78, lines 1-14; p. 84, lines
5-7; p. 86, lines 17-25. Mr. Kelly did state that in the
event GOODWIN had questions regarding whether to
accept a guilty plea at all, Mr. Kelly would have contacted Mr. Holesinger or asked the Judge to allow
GOODWIN to contact him, but Mr. Kelly stated GOODWIN never raised any questions regarding the plea at
the rearraignment. D.E. 64, p. 78, lines 1-14. Mr. Kelly
testiﬁed GOODWIN understood he could call Mr. Holesinger if he had a question during the plea. Id.
GOODWIN has failed to meet his burden showing
he was completely denied counsel at his rearraignment. The presence of Mr. Kelly as local counsel was
sufﬁcient to protect GOODWIN’s constitutional rights
at that hearing.
B. GOODWIN entered an intelligent and voluntary guilty plea.
A guilty plea is valid if entered voluntarily, knowingly and intelligently and with “sufﬁcient awareness
Kelly explained during testimony that should the case have gone
to trial, he would have represented only Patricia Goodwin and
withdrawn from petitioner’s case entirely. Mr. Kelly testiﬁed that
Mr. Holesinger had reviewed the plea agreement and factual resume with GOODWIN prior to the rearraignment. D.E. 64, p. 69,
lines 3-8. Mr. Holesinger also testiﬁed he reviewed the documents
with GOODWIN before the plea. D.E. 64, p. 106, lines 2-12.

App. 24
of the relevant circumstances and likely consequences.”
Bradshaw v. Stumpf, 545 U.S. 175, 183, 125 S.Ct. 2398,
162 L.Ed.2d 143 (2005). There are three major aspects
of a proper guilty plea: (1) the absence of coercion;
(2) a full understanding of the charges; and (3) a realistic appreciation of the consequences of the plea.
United States v. Gracia, 983 F.2d 625, 627-28 (5th Cir.
1993). The constitution “does not require complete
knowledge of the relevant circumstances, but permits
a court to accept a guilty plea, with its accompanying
waiver of various constitutional rights, despite various
forms of misapprehension under which a defendant
might labor.” United States v. Ruiz, 536 U.S. 622, 630
(2002) (internal marks omitted). In this case, the criminal acts committed by GOODWIN’s Indiana counsel,
Mr. Holesinger, require the Court to carefully and stringently consider this claim and whether counsel’s illegal
activities affected GOODWIN’s plea and whether such
impacted GOODWIN’s decision to accept a guilty plea.
While the burden is on GOODWIN to show that his
guilty plea was the result of deﬁcient performance on
the part of his attorney, and while the Court must give
weight to statements made under oath by GOODWIN
during the rearraignment and Rule 44 hearings, the
criminal charges against Mr. Holesinger require close
scrutiny of the ineffective assistance of counsel claims
against Holesinger. Even so, the Court can give greater
weight to GOODWIN’s rearraignment testimony acknowledging that Mr. Kelly (and/or other counsel) discussed the terms of the plea agreement and factual
resume with GOODWIN “many times” and that he
(GOODWIN) had read the factual resume and plea

App. 25
agreement prior to the plea, rather than to GOODWIN’s testimony at the evidentiary hearing that he
believed he was wholly without counsel at rearraignment and could not ask any questions of Mr. Kelly.
See United States v. Cothran, 302 F.3d 279, 284 (5th
Cir.2002) (giving statements during plea “colloquy
greater weight than unsupported, after-the-fact, selfserving assertions”).
In determining whether a guilty plea is voluntary,
a court must determine that the plea was not the result of force, threats, improper promises, misrepresentations, or coercion. United States v. Amaya, 111 F.3d
386, 389 (5th Cir. 1997). Plea colloquies are “solemn
declarations in open court” which carry “a strong presumption of verity.” United States v. Palmer, 456 F.3d
484, 491 (5th Cir. 2006) (citing United States v. Adam,
296 F.3d 327, 333 (5th Cir. 2002); United States v. Lampazianie, 251 F.3d 519, 524 (5th Cir. 2001)). Additionally, the “representations of the defendant, his lawyer,
and the prosecutor . . . in open court carry a strong presumption of verity.” Blackledge v. Allison, 431 U.S. 63,
73-74 (1977). When a signed plea agreement that is unambiguous is submitted at the same time as a guilty
plea in open court, the plea agreement is “accorded
great evidentiary weight.” United States v. Abreo, 30
F.3d 29, 32 (5th Cir. 1994). Later statements that are
self-serving, unsupported, and after-the-fact and which
contradict the statements made in plea agreements or
in open court during acceptance of a guilty plea will
fail to overcome the “formidable barrier” created by
the representations in the plea agreement. Allison, 431

App. 26
U.S. at 74. When a prisoner is refuting speciﬁc testimony given under oath at a plea hearing, he must
“offer speciﬁc factual allegations supported by the afﬁdavit of a reliable third person” to even call into question the statements made under oath. United States v.
Fuller, 769 F.2d 1095, 1099 (5th Cir. 1985).
GOODWIN’S claim that his guilty plea was unintelligent and involuntary is conclusory and does not set
forth speciﬁc factual allegations to amount to a constitutional violation. His claims in his Amended Motion
to Vacate regarding Mr. Holesinger’s misrepresentations regarding possible sentencing, Mr. Holesinger’s
failure to advise him regarding the plea agreement,
factual resume, superseding indictment, and other documents, and Mr. Holesinger’s failure to give credence
to GOODWIN’S claims of actual innocence are not supported by reliable evidence and these claims contradict
the statements GOODWIN made in his plea agreement
and in open court at his rearraignment. See United
States v. Michael David Goodwin, 2:12-CR-0037 (1),
D.E. 150, p. 24, lines 1-8; p. 26, lines 3-4 and 21-22. The
undersigned Magistrate Judge cannot give credence
to GOODWIN’s after-the-fact statements that Mr.
Holesinger did not review documents with him, when
GOODWIN informed the court under oath that either
Mr. Holesinger or Mr. Kelly had in fact reviewed documents with him prior to his plea. Id. at pp. 28-29.
GOODWIN’s claims that Mr. Holesinger had told him,
on the day before his December 13, 2012 rearraignment, to “just say yes” to all the District Judge’s questions are contradicted by statements GOODWIN made

App. 27
during rearraignment. Id. For example, when asked if
he had reviewed the factual resume with his attorney
prior to signing it, he did not answer “yes,” but rather
answered “many times, your honor.” Id. at p. 29, line 1.
GOODWIN also claimed Mr. Holesinger told him
that he had insufﬁcient funds to put forth a defense at
trial, and it was this information that led GOODWIN
to accept a plea of guilty. However, GOODWIN was advised of his right to have appointed counsel at any time
throughout his proceedings if he could no longer afford
retained counsel or if a conﬂict arose and he could not
afford separate counsel. See United States v. Michael
David Goodwin, 2:12-CR-0037 (1), D.E. 153, p. 18-19.
Additionally, the record reﬂects GOODWIN’s decision
to plead guilty was a result of the plea agreement deadline to dismiss charges against his wife and ofﬁce manager, not because of a lack of funds to proceed to trial.
D.E. 65, p. 21, line [sic] 15-19. In a letter after his sentencing, GOODWIN stated that he accepted a guilty
plea because he feared the prosecutor would proceed
with charges against Patricia Goodwin and Annette
Hastings and he wanted to “save them.” Id. at D.E. 142,
pp. 5-10.
GOODWIN’S testimony at the evidentiary hearing that he had never reviewed the superseding indictment, nor seen it, prior to his rearraignment hearing,
is contradicted by the September 20, 2012 rearraignment in his criminal case where the Magistrate Judge
issued an order ﬁnding GOODWIN acknowledged he
had read, received, and understood the charges in the
superseding indictment. GOODWIN also clearly indicated

App. 28
at the rearraignment hearing before the District Judge
that he had read and understood the plea agreement
prior to signing it and had reviewed it with his attorney. See United States v. Michael David Goodwin,
2:12-CR0037 (1), D.E. 150, pp. 28-29. Furthermore,
Mr. Kelly’s testimony at the evidentiary hearing was
that Mr. Kelly always reviews plea agreements in their
entirety with defendants prior to executing a plea
agreement and that he did so with GOODWIN. D.E.
64, pp. 69-70. Mr. Kelly further indicated that GOODWIN’s primary concern throughout the case was in
keeping his wife from going to prison and from being
prosecuted. D.E. 64, p. 81, line 22 through p. 82, line 5.
Mr. Kelly believed GOODWIN’s guilty plea was consistent with his stated purpose of keeping his wife from
being prosecuted and was not the result of any coercion. Id. at p. 82, lines 12-17.
C. There is not sufﬁcient evidence to support
the allegation that any conﬂict of interest affected Mr. Holesinger’s representation of
GOODWIN.
The evidence presented at the evidentiary hearing
and from documents of record in this case indicate that
GOODWIN’s attorney, Mr. Holesinger, was convicted of
Wire Fraud and Theft from a pattern of stealing and/or
embezzling from his clients. This is not disputed by
the government and in fact, Mr. Holesinger appeared
at the evidentiary hearing pursuant to a writ and
was in custody after having been sentenced. However,
evidence presented at the evidentiary hearing was

App. 29
inadequate to show what amount, if any, Mr. Holesinger
might have stolen or embezzled from GOODWIN. Although GOODWIN testiﬁed and presented records
that he paid Mr. Holesinger approximately $400,000
over the course of the representation, GOODWIN
has not established what amounts of money did not go
to legitimate representation fees. In fact, it appears
GOODWIN is claiming Mr. Holesinger embezzled approximately $380,000, meaning that GOODWIN believes less than $20,000 was spent on the defense of a
complicated Medicaid Fraud case spanning over a year
and a half D.E. 65, pp. 39-40. The evidentiary hearing
record shows Mr. Holesinger provided legitimate legal
services to GOODWIN. He hired an expert, Ms. Miller,
hired co-counsel, Mr. DeBoer, hired local counsel, William B. Kelly III, and traveled and investigated this
case, and continued to provide representation from the
date he was retained in mid-2012 through sentencing
in April of 2013. Thus, GOODWIN has failed to show
Mr. Holesinger actually embezzled from him, or, if
he did, the amount Mr. Holesinger embezzled. D.E. 65,
pp. 39-40. GOODWIN certainly has established Mr.
Holesinger’s bad acts against other clients but at most,
he has only shown Mr. Holesinger might have stolen
from GOODWIN. In any event, GOODWIN has failed
to meet his burden to show that such behavior resulted
in deﬁcient performance of counsel and has further
failed to prove how the deﬁcient performance prejudiced GOODWIN’s criminal case. Mr. Holesinger’s
conduct in defrauding other clients undermines conﬁdence in the legal system and calls into question
the representation provided by Mr. Holesinger to

App. 30
GOODWIN. The Court considers Mr. Holesinger’s behavior reprehensible and has nothing positive to say
about it. However, the burden remains on GOODWIN
to show both an actual deﬁcient performance and resulting prejudice and the Court cannot impute the dishonesty of Mr. Holesinger in stealing from other clients
to his representation of GOODWIN. It is GOODWIN’s
task to show prejudice by showing speciﬁc actions
taken or not taken by Mr. Holesinger which would have
altered the outcome or altered GOODWIN’s decision to
plead guilty. For example, GOODWIN did not show
that the alleged embezzlement caused Mr. Holesinger
to fail to hire an expert and that such failure would
have changed the course of his case. This high burden
falls on GOODWIN despite Mr. Holesinger’s clearly
egregious behavior that GOODWIN became aware of
after-the-fact of the plea and sentencing and which has
undermined GOODWIN’s confidence in Mr. Holesinger’s
representation. GOODWIN, throughout his Motion to
Vacate and at his evidentiary hearing, argued that his
attorney, Mr. Holesinger, was convicted of wrongdoing
in the handling of client funds. GOODWIN then leaps
to the conclusion that this wrongdoing resulted in per
se deﬁcient performance in GOODWIN’s representation which also resulted in per se prejudice in GOODWIN’s criminal case. This automatic leap from proving
an attorney’s wrongdoing or criminal behavior to proving deﬁcient performance and prejudice is misguided.
Proving breach of the standard of care owed to a client
and proving deﬁcient performance are not identical
processes or ﬁndings, nor is proving actual prejudice
identical.

App. 31
Since the Cronic standard does not apply to
GOODWIN’s claims GOODWIN must satisfy the twopart Strickland test in order to prevail on his motion.
Under the Strickland standard for ineffective assistance, the court must determine whether counsel’s performance was indeed deﬁcient. To do so, the court can
view “the reasonableness of counsel’s actions” by “the
defendant’s own statements or actions.” Strickland,
466 U.S. at 691. Courts should generally presume that
counsel gave competent legal advice when advising a
client to accept a guilty plea.
See Padilla v. Kentucky, 559 U.S. 356, 372, 130
S. Ct. 1473, 176 L.Ed.2d 284 (2010). In order to satisfy
the second part of the Strickland test, it is up to
GOODWIN to afﬁrmatively prove prejudice. Id. at 693.
To prove prejudice, GOODWIN must show that the result of the proceeding would have been different but
for counsel’s deﬁcient performance. Id. at 694. It is not
easy to meet the Strickland prejudice test when a defendant accepts a guilty plea because the defendant
must later show that a decision to reject the guilty plea
would have been rational under the circumstances. Roe
v. Flores-Ortega, 528 U.S. 470, 480, 486, 120 S. Ct. 1029,
145 L.Ed.2d 985 (2000).
GOODWIN alleges he suffered the following constitutional violations due to ineffective assistance of
counsel: lack of proper adversarial testing (discussed
below, section D), misrepresentations regarding funds
needed to go to trial based on counsel’s conﬂict of interest resulting from theft of funds (discussed above, section
B), misrepresentations regarding possible sentencing

App. 32
terms (discussed below, section I), failure to adequate
[sic] discuss terms of the plea agreement and factual
resume (discussed below, section I), improper actions
taken during civil forfeiture proceedings (discussed below, section E), and the failure to adequately pursue
defenses, especially as it relates to the expert’s report
(discussed below, section G). GOODWIN’s response to
all of these alleged violations is that had they not have
occurred, he would have proceeded to trial. D.E. 65,
p. 18, lines 11-25. However, despite his conclusory
claims that he would have “insisted on a trial,” he has
failed to show such an insistence would have been rational. He testiﬁed at the evidentiary hearing that “he
wouldn’t continue with someone stealing from me” if
he had known about the alleged theft/embezzlement
during the representation. D.E. 65, pp. 18-19. As set out
above, however, he never established whether or what
amount of funds were misappropriated. Mr. Holesinger’s
conviction documents, submitted as exhibits to his
Motion to Vacate, did not include charges that Mr.
Holesinger misappropriated funds from GOODWIN
and to the Court’s knowledge GOODWIN was never
named as a victim in a criminal case ﬁled against Mr.
Holesinger. GOODWIN must offer more than he has to
establish that he has met the prejudice showing required under Strickland. Furthermore, he has failed to
meet his burden to show these alleged constitutional
violations even occurred, because they are contradicted by earlier statements made by GOODWIN and
no supporting documentary evidence or testimony corroborates GOODWIN’s change of testimony.

App. 33
Once again, it is GOODWIN’s burden of proof to
show prejudice and GOODWIN’s burden of proof to show
that counsel’s performance was in fact constitutionally
deﬁcient. GOODWIN’s own actions and statements
made under oath (see rearraignment transcripts citations above for references) reﬂect he (1) wanted to continue his case with Mr. Holesinger as counsel for both
him and his spouse because he believed Mr. Holesinger
had been investigating his case for many months and
was satisﬁed with his representation; (2) understood
possible sentencing terms; (3) understood his right to
appointed counsel if he ran out of money; (4) understood his appellate rights, plea agreement, and factual
resume; and (5) had been informed of the Miller report
prior to plea and had the opportunity to discuss possible defenses (although none have been articulated in
the hearing) with his attorney. D.E. 65, p. 11, lines 815 (as to the Miller report).
GOODWIN testiﬁed at the evidentiary hearing
that he maintained his innocence until “the 13th.” D.E.
65, p. 18, line 11 (referring to the date of rearraignment). Mr. Holesinger testiﬁed GOODWIN discussed
going to trial with him and whether he (GOODWIN)
could win, but GOODWIN also admitted to factual allegations by the government which established guilt
under the superseding indictment. D.E. 64, pp. 171172. Patricia Goodwin testiﬁed several workers were
the ones who were ultimately responsible for the fraudulent Medicaid billing scheme. D.E. 64, pp. 203-209.
However, Mrs. Goodwin also testiﬁed she was aware
that the practices of these workers was wrong (she told

App. 34
them “but you can’t do that”). She then stated that she
and GOODWIN were trying to ﬁrst address sanitation
issues and building moving issues before addressing
Medicaid issues. D.E. 64, pp. 210-212; pp. 221 (stating
“eventually I’ll change everything” because the workers were “giving her a hard time”). Patricia Goodwin’s
testimony acknowledges awareness of wrongful and
incorrect Medicaid billing and merely attempts to justify the delay in correcting the problem and contradicts
an actual innocence claim. To establish actual innocence, the petitioner must demonstrate that, “in light
of all the evidence, it is more likely than not that no
reasonable juror would have convicted him.” Schlup v.
Delo, 513 U.S. 298, 327-28, 115 S.Ct. 851, 130 L.Ed.2d
808 (1995). Indeed, “actual innocence means factual innocence, not mere legal insufﬁciency.” Id. at 327-28.
GOODWIN failed to establish a claim for factual innocence through testimony or evidence submitted at the
evidentiary hearing.
Additionally, the evidence supports that the advice
to plead guilty given by Mr. Holesinger was competent and sound. In the Government’s Response to the
Court’s Brieﬁng Order, the government sets forth the
justiﬁcations for accepting a plea agreement. D.E. 66,
pp. 2-7. The Court agrees that the justiﬁcations articulated by the government provide a sound basis for acceptance of the guilty plea. It was the testimony by
Mr. Kelly and Mr. Holesinger that GOODWIN’s stated
purpose in accepting a guilty plea was to prevent his
wife from facing prosecution. There is nothing GOODWIN said during the guilty plea proceedings which

App. 35
contradicts his sworn admission of guilty. Additionally,
GOODWIN acknowledged at the evidentiary hearing
that preventing his wife’s prosecution was his stated
purpose. GOODWIN has not shown it to be rational
to reject a plea to a single count of a twelve count
indictment, thus limiting sentencing exposure, and
avoiding subjecting two other individuals to criminal
prosecution, when no evidence has been provided that
GOODWIN was factually innocent. The court provided
GOODWIN, through counsel, the opportunity through
the brieﬁng order, to address any actual innocence
claims made by GOODWIN, and he failed to show actual innocence. In fact, testimony by Patricia Goodwin
on cross examination conﬁrms that GOODWIN billed
for Medicaid procedures that he did not perform.5 No
evidence presented during this case indicates how pursuing ownership claims in the civil forfeiture proceedings would have altered the outcome of the criminal
case. GOODWIN has never articulated what defenses,
if any, he had to the government’s allegations in the
superseding indictment.
Perhaps most importantly, GOODWIN admitted that
he had reviewed the factual resume “many times” and
that the factual basis for the plea was true. Without a
5

It appears that Patricia Goodwin was stating that ofﬁce
staff members continued to bill unlawfully to “get back at” the
Goodwins for practices that they did not like; however, Patricia
Goodwin also appeared to admit to knowledge of all the problems
with the billing practices and decided not to address them because
they were too concerned with opening a new location and dealing
with cleanliness problems, which is not a defense to the crimes
charged.

App. 36
showing on the part of GOODWIN of a rational reason
to reject the plea agreement or insist upon a trial, this
Court has no basis to ﬁnd that GOODWIN’s rejection
of the plea agreement would have been a rational
choice.
D. The record supports that Mr. Holesinger subjected the government’s case to adversarial
testing and investigated the allegations in
the indictment.
A defendant in a criminal case can be constructively denied counsel if his attorney “entirely fails to
subject the prosecution’s case to meaningful adversarial testing.” Cronic, 466 U.S. at 659. This occurs only
when the attorney’s handling of the case was entirely
inadequate to the point that basically no assistance of
counsel was provided at all. Id. at 654. In fact, Cronic
applies only when counsel has entirely failed to challenge the prosecution’s case. Bell v. Cone, 535 U.S. 685,
697, 122 S. Ct. 1843, 152 L.Ed.2d 914 (2002). If counsel
provided some assistance throughout the proceedings
and that assistance is meaningful, the Cronic standard
is inapplicable and the Strickland standard, requiring
a showing of prejudice, applies. Cracker v. McCotter,
805 F.2d 538, 542 (5th Cir. 1986).
GOODWIN has failed to show he was constructively denied counsel. The record indicates that Mr.
Holesinger, along with co-counsel Mr. DeBoer, subjected
the government’s case to adversarial testing. D.E. 64,
pp. 124-134. First, defense counsel ﬁled motions to

App. 37
dismiss both the indictment and the superseding indictment. See United States v. Michael David Goodwin,
2:12-CR-0037(1), D.E. 60. Second, Mr. Holesinger met
with government counsel and government agents investigating the case to discuss the charges and appeared to be well-informed about the case during the
meeting. D.E. 65, pp. 56-57 (Agent Martin testiﬁed
Mr. Holesinger and Mr. DeBoer had a good working
knowledge of the case reﬂecting investigation and research prior to meeting with government agents).
Third, Mr. Holesinger and Mr. DeBoer traveled to Amarillo to interview witnesses and conduct an investigation into the charges. D.E. 64, pp. 110-115; pp. 124-134.
Fourth, Mr. Holesinger negotiated a plea bargain for
GOODWIN to plead to only one count of an eleven
count indictment, reducing the exposure of GOODWIN
during sentencing. The negotiated plea agreement included dismissal of all charges against Patricia Goodwin and the ofﬁce manager, Annette Hastings, which
was a primary concern articulated by GOODWIN on
several occasions. These actions, among others, indicate that Holesinger did indeed provide meaningful assistance throughout the case to GOODWIN.
GOODWIN has failed to meet his burden of
showing that neither Mr. Holesinger, nor Mr. DeBoer
subjected his case to adequate investigation and adversarial testing. The evidence presented at the evidentiary hearing shows the investigation into the case was
not only adequate, but was quite extensive.

App. 38
E. No showing was made how the abandonment
of GOODWIN’S civil forfeiture ownership
claims affected the outcome of his criminal
case; additionally, these claims do not relate
back to his original Motion to Vacate.
GOODWIN’s statement that the pursuit of his
ownership claims in his civil forfeiture proceeding
would have led to further discovery, which would have
revealed possible defenses to his criminal case, is entirely conclusory. GOODWIN has not advanced an actual defense that further investigation would have
revealed. His wife’s statements that they contacted a
Medicaid billing representative and were “trying” to ﬁx
the Medicaid billing problems left by the prior staff
does not indicate why GOODWIN did not stop billing
Medicaid until he had full understanding of the billing procedures and does not reﬂect the likelihood of a
possible defense to the charges. See United States v.
Michael David Goodwin, 2:12-CR-0037 (1), D.E. 142,
letter to U.S. District Judge Robinson (GOODWIN admits to knowledge of all the problems with sanitation
and billing prior to purchasing the practice from Dr.
Osborn).
The burden of proof is on GOODWIN to show how
the abandonment of GOODWIN’s civil forfeiture ownership claim led to prejudice in his criminal case.
GOODWIN claims that pursuit of the civil forfeiture in
his criminal case would have led to additional discovery in his criminal case. GOODWIN has failed to show
any discovery he was not provided as part of his criminal case and how that discovery/evidence would have

App. 39
altered the outcome of his criminal case. As discussed
above, GOODWIN has failed to articulate prejudice
under Strickland if he cannot show how the deﬁcient
performance alleged (here, the failure to pursue the
civil forfeiture) created a rational basis for rejecting
the guilty plea.
In addition to GOODWIN’s failure to meet his burden of proof on this claim, he also failed to articulate
this claim as part of his original Motion to Vacate and
the government has objected to its inclusion on the basis that it does not relate back to his original claims.
The Court ﬁnds that this claim is barred under the
statute of limitations, but in any event, the Court
agrees with the government that no showing has been
made how abandonment in the civil forfeiture case affected his decision to plead guilty. He was still planning
to go to trial long after his civil forfeiture claims were
abandoned, but changed his mind when his wife’s
charges were going to be dismissed and his own exposure was reduced.
F. Mr. Holesinger did interview witnesses and
pursue possible defenses and no evidence
was proffered how information obtained from
any witness listed in the Motion to Vacate
would have affected the outcome of the criminal case.
GOODWIN has failed to meet his burden to show
how interviewing any of the favorable or adversarial
witnesses in his criminal case would have changed the

App. 40
outcome of his case. GOODWIN could have subpoenaed witnesses for his evidentiary hearing to prove
they had information crucial to his defense if such
nformation existed. Further, he could have obtained
afﬁdavits or stipulations regarding government witnesses. In fact, one of the lead case agents did testify
at the evidentiary hearing and GOODWIN did not develop any information from the agent indicating that
any witnesses had information that would have altered the outcome of GOODWIN’s case. Without any
proffered testimony from these witnesses, the Court
cannot conclude that GOODWIN would have a rational basis to reject the plea agreement based on an
unarticulated defense. It is GOODWIN’s burden to establish what defense was available which would have
rationally led to his insistence on trying his case.
G. Mr. Holesinger did not conceal the Miller
Report from GOODWIN, he simply advised
GOODWIN that the report was neutral to his
defense. Additionally, this claim does not relate back to his original Motion to Vacate.
GOODWIN gave conﬂicting testimony and statements regarding the Miller report. He acknowledged
at one point that he had discussed it with his attorney
prior to his plea and was told the Miller report was not
favorable to his case. He later claimed he did not know
about the report until after his sentencing. The government objected to testimony that referred to information contained in the Miller report as hearsay and
the Miller report was not admitted into evidence at the

App. 41
evidentiary hearing.6 The Miller report was not included as part of GOODWIN’s original Motion to Vacate, but to the extent that it relates generally to the
claim that Mr. Holesinger failed to investigate possible
defenses, GOODWIN has failed to show prejudice by
articulating what defenses GOODWIN had to the allegations in the superseding indictment and how Mr.
Holesinger’s alleged deﬁcient performance affected the
outcome of his guilty plea. Furthermore, no argument
was made as to what speciﬁc information was contained in the report that would have been a rational
basis for GOODWIN to insist upon a trial, rather than
pleading guilty. Ms. Miller could have been subpoenaed
to testify at the evidentiary hearing if she had speciﬁc
information regarding a viable defense for GOODWIN’s case.
In addition to GOODWIN’s failure to meet his burden of proof on this claim, he also failed to articulate
this claim as part of his original Motion to Vacate and
the government has objected to its inclusion on the basis that it does not relate back to his original claims.
The Court agrees that the report is not mentioned as
part of his original Motion to Vacate, but as the information contained in the report is not before this Court
and no speciﬁc arguments have been articulated to
show how the report is favorable, the Court ﬁnds it

6

GOODWIN did not offer the Miller Report as an exhibit
during the evidentiary hearing so no ruling was made on its admissibility. The Miller Report was also attached to the original
Motion to Amend.

App. 42
unnecessary to further address the timeliness of the
claim.
H. No evidence offered at the evidentiary hearing or in the record supports that Mr. Holesinger failed to investigate the Medicaid
practices of Dr. Osborn, or how such an investigation would negate the charges against
GOODWIN.
GOODWIN separately articulates a claim stating
that Mr. Holesinger failed to investigate practices by
Dr. Charles Osborn. The testimony by Mr. Holesinger
at the evidentiary hearing was that he was familiar
with some practices of Dr. Osborn but he could not remember speciﬁcs of his investigation into the Medicare
Fraud claims. In any event, GOODWIN has failed to
articulate how an investigation into the practices of
Dr. Osborn would have revealed a speciﬁc and/or viable
defense in his criminal case and/or would have provided a rational basis for him to insist upon a trial. In
addition, he has failed to show that Mr. Holesinger did
not conduct such an investigation.
In a lengthy letter to the District Judge following
the sentencing in his case, GOODWIN outlines many
reasons he contends he is not culpable of Medicaid
Fraud. While GOODWIN does in fact outline practices
he contends were in existence prior to his involvement,
he does not offer anything sufﬁcient to establish a viable defense to criminal charges ﬁled against him. See

App. 43
United States v. Michael David Goodwin, 2:12-CR0037 (1), D.E. 142, pp. 5-10.
I.

The record of the rearraignment hearing negates GOODWIN’S claims that Mr. Holesinger,
and other counsel, failed to discuss the plea
agreement, factual resume and sentencing
terms with GOODWIN. Furthermore, GOODWIN stated he understood his appellate rights
and did not wish to appeal on the record.

GOODWIN’s own statements at the arraignment,
the Rule 44 hearing, the rearraignment, the sentencing hearing, and contained within written pleadings
all contradict his statements made at the evidentiary
hearing that he did not review these documents or
these rights with counsel prior to accepting a guilty
plea or prior to signing these documents. His after-thefact statements at the evidentiary hearing are not supported by independent evidence, as required, for this
court to give weight to his contradicting claims.
The District Judge at the rearraignment discussed
the plea agreement with GOODWIN and after each
section the judge covered, GOODWIN was asked if he
discussed such terms with his counsel, if he had any
questions, and if he understood the terms. See United
States v. Michael David Goodwin, 2:12-CR-0037 (1),
D.E. 150, pp. 20-27. GOODWIN acknowledged repeatedly that he understood the proceedings and wished to
proceed with a guilty plea “with a heavy heart.” Id. at
p. 19, line 22. The evidence reflects GOODWIN’s understanding of the plea documents, charging document,

App. 44
his right to a trial, and the consequences of his plea.
GOODWIN has failed to establish any deﬁcient performance on the part of counsel (either Mr. Holesinger or
Mr. Kelly) in discussing the terms of the plea documents and charging instrument with him. In addition,
GOODWIN would also be required to show prejudice
based on failure to review these documents. The District Judge reviewed the plea documents and the superseding indictment with GOODWIN as well, which
would negate a prejudice argument on this ground.
GOODWIN has not articulated deﬁcient performance of Mr. Holesinger in failing to ﬁle an appeal of
his case. The District Court Judge properly informed
GOODWIN of the procedures for executing an appeal.
If, as GOODWIN claims, Mr. Holesinger told GOODWIN that he would not ﬁle an appeal of GOODWIN’s
case, GOODWIN had the opportunity to properly affect
an appeal on his own. Further, GOODWIN ﬁled a Motion to Withdraw his Guilty Plea on April 14, 2014, referencing a letter written to the Court on April 23, 2013
(days after sentencing in his criminal case). Neither
this Motion, nor the underlying letter, indicate Mr.
Holesinger’s refusal to appeal his case, nor did GOODWIN mention appeal in the Motion or letter.
V.
RECOMMENDATION
It is the RECOMMENDATION of the United
States Magistrate Judge that the Motion to Vacate, Set

App. 45
Aside, and Correct Sentence, ﬁled by petitioner MICHAEL DAVID GOODWIN be DENIED.
VI.
INSTRUCTIONS FOR SERVICE
The United States District Clerk is directed to
send a copy of this Report and Recommendation to
each party by the most efﬁcient means available.
IT IS SO RECOMMENDED.
ENTERED this 31st day of March, 2017.
/s/ Clinton E. Averitte
CLINTON E. AVERITTE
UNITED STATES
MAGISTRATE JUDGE

App. 46
* NOTICE OF RIGHT TO OBJECT *
Any party may object to these proposed ﬁndings,
conclusions and recommendation. In the event parties
wish to object, they are hereby NOTIFIED that the
deadline for ﬁling objections is fourteen (14) days from
the date of ﬁling as indicated by the “entered” date directly above the signature line. Service is complete
upon mailing, Fed. R. Civ. P. 5(b)(2)(C), or transmission
by electronic means, Fed. R. Civ. P. 5(b)(2)(E). Any
objections must be ﬁled on or before the fourteenth (14th) day after this recommendation is
ﬁled as indicated by the “entered” date. See 28 U.S.C.
§ 636(b); Fed. R. Civ. P. 72(b)(2); see also Fed. R. Civ.
P. 6(d).
Any such objections shall be made in a written
pleading entitled “Objections to the Report and Recommendation.” Objecting parties shall ﬁle the written objections with the United States District Clerk and
serve a copy of such objections on all other parties. A
party’s failure to timely ﬁle written objections to the
proposed ﬁndings, conclusions, and recommendation
contained in this report shall bar an aggrieved party,
except upon grounds of plain error, from attacking
on appeal the unobjected-to proposed factual ﬁndings,
legal conclusions, and recommendation set forth by
the Magistrate Judge in this report and accepted by
the district court. See Douglass v. United Services
Auto. Ass’n, 79 F.3d 1415, 1428-29 (5th Cir. 1996)
(en banc), superseded by statute on other grounds, 28
U.S.C. § 636(b)(1), as recognized in ACS Recovery

App. 47
Servs., Inc. v. Grifﬁn, 676 F.3d 512, 521 n.5 (5th Cir.
2012); Rodriguez v. Bowen, 857 F.2d 275, 276-77 (5th
Cir. 1988).

App. 48
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
AMARILLO DIVISION
UNITED STATES
OF AMERICA
VS.
MICHAEL DAVID
GOODMAN

§
§
§
§
§
§
§

CASE NO.

AFFIDAVIT OF WILLIAM E. KELLY III
(Filed May 28, 2014)
My name is William E. Kelly, III. I am over 18
years of age and competent to make this afﬁdavit.
I am a member in good standing of the Virginia
State Bar and have been since October of 1973. I am
also a member in good standing of the State Bar of
Texas and have been since May of 1989. Criminal law
has always been central in my practice in both states.
I was Assistant Commonwealth Attorney for the City
of Richmond, Virginia and did criminal defense work
in the counties surrounding Richmond. My practice in
Texas has consisted mostly of criminal defense work,
both state and federal. I have also practiced quite a bit
of family law and civil litigation.
In 2012, Clark W. Holsinger [sic] , an attorney in Indiana, hired me to represent Patricia Goodwin and serve
as local counsel for Mr. Holsinger in his representation
of Dr. Michael David Goodwin. Dr. Goodwin pled guilty

App. 49
to one count of Health Care Fraud on April 13, 2013 in
the United States District Court for the Northern District of Texas, Amarillo Division. The indictment
against his wife, Patricia Goodwin, was dismissed as
part of the plea agreement. I was provided a copy of the
Motion to Withdraw Guilty Plea and Motion for Appointment of Counsel, along with attachments including an afﬁdavit signed by Dr. Goodwin. Dr. Goodwin
ﬁled the above documents Pro Se. In items 6 and 7 of
Dr. Goodwin’s “Defendant’s Afﬁdavit” attached as Exhibit C to his Motion to Withdraw Guilty Plea, he infers that I pressured him to agree to a guilty plea “prior
to the prosecutor going to dinner” or Dr. Goodwin
would “go to jail for a long time”.
I was counsel for Patricia Goodwin and did not
give legal advice to Dr. Goodwin. I never said the
things Dr. Goodwin attributed to me in his afﬁdavit.
There were times when Dr. Goodwin would ask my
opinion regarding the pros and cons of pleading guilty
or going to trial. I would give my opinion, always with
the caveat that he should consult with his counsel, Mr.
Holsinger, for legal advice and that what I was giving
was just that, an opinion, as no attorney-client relationship existed between us. I never gave Dr. Goodwin
legal advice on whether or not to plead guilty, proceed
to trial, or any other matter, as that was not part and
parcel of my duties and responsibilities in this case as
local counsel. My legal representation and legal advice
was conﬁned to Patricia Goodwin, Dr. Goodwin’s wife.

App. 50
/s/ William E. Kelly
William E. Kelly III
State of Texas
§
County of
Randall
§
SIGNED under oath before me on 5/27/2014.
/s/

[SEAL]

K Kelly
Notary Public, State of Texas
KARENE ANNE KELLY
Notary Public State of Texas
My Commission Expires
January 15, 2018

